<html>
<title> - HEALTHY FOOD INITIATIVES, LOCAL PRODUCTION AND NUTRITION</title>
<body><pre>[Senate Hearing 112-692]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 112-692

 
                       HEALTHY FOOD INITIATIVES, 
                     LOCAL PRODUCTION AND NUTRITION 

=======================================================================

                                HEARING

                              [before the]

                       COMMITTEE ON AGRICULTURE,
                         NUTRITION AND FORESTRY
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               ----------                              

                             MARCH 7, 2012

                               ----------                              

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry

















        HEALTHY FOOD INITIATIVES, LOCAL PRODUCTION AND NUTRITION

















                                                        S. Hrg. 112-692

                       HEALTHY FOOD INITIATIVES,
                     LOCAL PRODUCTION AND NUTRITION

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                         NUTRITION AND FORESTRY

                          UNITED STATES SENATE


                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION


                               __________

                             MARCH 7, 2012

                               __________

                       Printed for the use of the
            Committee on Agriculture, Nutrition and Forestry


        Available via the World Wide Web: http://www.fdsys.gov/


                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

78-273 PDF                       WASHINGTON : 2013 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


            COMMITTEE ON AGRICULTURE, NUTRITION AND FORESTRY



                 DEBBIE STABENOW, Michigan, Chairwoman

PATRICK J. LEAHY, Vermont            PAT ROBERTS, Kansas
TOM HARKIN, Iowa                     RICHARD G. LUGAR, Indiana
KENT CONRAD, North Dakota            THAD COCHRAN, Mississippi
MAX BAUCUS, Montana                  MITCH McCONNELL, Kentucky
E. BENJAMIN NELSON, Nebraska         SAXBY CHAMBLISS, Georgia
SHERROD BROWN, Ohio                  MIKE JOHANNS, Nebraska
ROBERT P. CASEY, Jr., Pennsylvania   JOHN BOOZMAN, Arkansas
AMY KLOBUCHAR, Minnesota             CHARLES E. GRASSLEY, Iowa
MICHAEL BENNET, Colorado             JOHN THUNE, South Dakota
KIRSTEN GILLIBRAND, New York         JOHN HOEVEN, North Dakota

             Christopher J. Adamo, Majority Staff Director

              Jonathan W. Coppess, Majority Chief Counsel

                    Jessica L. Williams, Chief Clerk

              Michael J. Seyfert, Minority Staff Director

                Anne C. Hazlett, Minority Chief Counsel

                                  (ii)



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

Healthy Food Initiatives, Local Production and Nutrition.........     1

                              ----------                              

                        Wednesday, March 7, 2012
                    STATEMENTS PRESENTED BY SENATORS

Stabenow, Hon. Debbie, U.S. Senator from the State of Michigan, 
  Chairwoman, Committee on Agriculture, Nutrition and Forestry...     1
Roberts, Hon. Pat, U.S. Senator from the State of Kansas.........     3
Brown, Hon. Sherrod, U.S. Senator from the State of Ohio.........     4
Casey, Hon. Robert, Jr., U.S. Senator from the State of 
  Pennsylvania...................................................    20
Leahy, Hon. Patrick J., U.S. Senator from the State of Vermont...    33

                                Panel I

Vilsack, Hon. Thomas, Secretary, U.S. Department of Agriculture, 
  Washington, DC.................................................     5

                                Panel II

Carmody, Dan, President, Eastern Market Corporation, Detroit, 
  Michigan.......................................................    18
Goodman, Anne, President and Chief Executive Officer, Cleveland 
  Foodbank, Cleveland, Ohio......................................    25
Hardin, Jody, Farmer, Grady, Arkansas............................    23
McCormick, Ron, Senior Director of Local Sourcing and Sustainable 
  Agriculture, Walmart Stores, Inc., Bentonville, Arkansas.......    21
Weidman, John, Deputy Executive Director, Food Trust, 
  Philadelphia, Pennsylvania.....................................    27
                              ----------                              

                                APPENDIX

Prepared Statements:
    Casey, Hon. Robert, Jr.......................................    38
    Lugar, Hon. Richard G........................................    40
    (Legislative language for Title II available from the Chief 
      Clerk).....................................................
    Carmody, Dan.................................................    42
    Goodman, Anne................................................    46
    Hardin, Jody.................................................    61
    McCormick, Ron...............................................    68
    Vilsack, Hon. Thomas.........................................    78
    Weidman, John (with attachments).............................    87
Document(s) Submitted for the Record:
Stabenow, Hon. Debbie:
    Nutrition Coalition, prepared statement......................   114
Leahy, Hon. Patrick J.:
    Farm to Plate, Appendix D, Dissolving the Double Bind, 
      Strategies for Expanding Food Access and Developing 
      Vermont's Local Food System................................   119
    Farm to Plate, Executive Summary.............................   168
    Hunger Free Vermont..........................................   220
Carmody, Dan:
    Detroit Eastern Market, prepared statement...................   224
    The Detroit Food System Report 2009-2010.....................   264
Question and Answer:
Stabenow, Hon. Debbie:
    Written questions to Dan Carmody.............................   342
    Written questions to Jody Hardin.............................   349
    Written questions to Hon. Tom Vilsack........................   355
    Written questions to John Weidman............................   372
Roberts, Hon. Pat:
    Written questions to Ron McCormick...........................   351
    Written questions to Hon. Tom Vilsack........................   358
Casey, Hon. Robert, Jr.:
    Written questions to Dan Carmody.............................   343
    Written questions to Anne Goodman............................   346
    Written questions to Jody Hardin.............................   349
    Written questions to Ron McCormick...........................   353
    Written questions to Hon. Tom Vilsack........................   364
    Written questions to John Weidman............................   373
Gillibrand, Hon. Kirsten:
    Written questions to Hon. Tom Vilsack........................   365
Johanns, Hon. Mike:
    Written questions to Hon. Tom Vilsack........................   369
Klobuchar, Hon. Amy:
    Written questions to Hon. Tom Vilsack........................   364
Leahy, Hon. Patrick J.:
    Written questions to Hon. Tom Vilsack........................   361
Thune, Hon. John:
    Written questions to Dan Carmody.............................   344
    Written questions to Anne Goodman............................   347
    Written questions to Jody Hardin.............................   350
    Written questions to Ron McCormick...........................   353
    Written questions to Hon. Tom Vilsack........................   370
    Written questions to John Weidman............................   376
Carmody, Dan:
    Written response to questions from Hon. Debbie Stabenow......   342
    Written response to questions from Hon. Robert Casey, Jr.....   344
    Written response to questions from Hon. John Thune...........   344
Goodman, Anne:
    Written response to questions from Hon. Robert Casey, Jr.....   346
    Written response to questions from Hon. John Thune...........   347
Hardin, Jody:
    Written response to questions from Hon. Debbie Stabenow......   349
    Written response to questions from Hon. Robert Casey, Jr.....   349
    Written response to questions from Hon. John Thune...........   350
McCormick, Ron:
    Written response to questions from Hon. Pat Roberts..........   351
    Written response to questions from Hon. Robert Casey, Jr.....   353
    Written response to questions from Hon. John Thune...........   353
Vilsack, Hon. Tom:
    Written response to questions from Hon. Debbie Stabenow......   355
    Written response to questions from Hon. Pat Roberts..........   359
    Written response to questions from Hon. Patrick J. Leahy.....   361
    Written response to questions from Hon. Robert Casey, Jr.....   364
    Written response to questions from Hon. Amy Klobuchar........   364
    Written response to questions from Hon. Kirsten Gillibrand...   365
    Written response to questions from Hon. Mike Johanns.........   370
    Written response to questions from Hon. John Thune...........   370
Weidman, John:
    Written response to questions from Hon. Debbie Stabenow......   372
    Written response to questions from Hon. Robert Casey, Jr.....   373
    Written response to questions from Hon. John Thune...........   376



                       HEALTHY FOOD INITIATIVES,
                     LOCAL PRODUCTION AND NUTRITION

                              ----------                              


                        Wednesday, March 7, 2012

                              United States Senate,
          Committee on Agriculture, Nutrition and Forestry,
                                                     Washington, DC
    The committee met, pursuant to notice, at 9:40 a.m., in 
room 216, Hart Senate Office Building, Hon. Debbie Stabenow, 
Chairwoman of the committee, presiding.
    Present or submitting a statement: Senators Stabenow, 
Leahy, Brown (of Ohio), Casey, Klobuchar, Roberts, Johanns, 
Boozman, Grassley, and Thune.

STATEMENT OF HON. DEBBIE STABENOW, U.S. SENATOR FROM THE STATE 
 OF MICHIGAN, CHAIRWOMAN, COMMITTEE ON AGRICULTURE, NUTRITION 
                          AND FORESTRY

    Chairwoman Stabenow. Good morning. We will call to
    order the Committee on Agriculture, Nutrition and Forestry.
    We are pleased that all of you are here today during 
National Agriculture Week, so this is an important time for us 
to be having a very important hearing as we continue our 
efforts to work together on the 2012 farm bill.
    Today, we focus on the increasing demand for locally grown 
food and the opportunities that that creates for farmers and 
ranchers across the country. We also take a look at how we can 
strengthen access to healthy food for communities that are in 
need.
    You know, when I go home to Michigan on the weekends, I 
love seeing the ``Michigan Made'' produce in the supermarkets, 
and we have, of course, everything from apples and cherries and 
blueberries and sweet corn and hot dogs and sausage and more 
kinds of vegetables than you can imagine, and a growing 
selection of Michigan beer and wine. So we have everything in 
Michigan. It makes me hungry this morning.
    But Michigan State University recently partnered with Myers 
Stores to promote ``Made in Michigan'' products in the grocery 
aisles, including locally grown produce and value-added 
products like salsas and jams and spaghetti sauces. So we are 
seeing ``Michigan Made'' signs in grocery stores all across the 
State. That is a trend I want to see continue, and it is 
certainly one that people in Michigan want to see continue.
    Whether a Kansas farmer is growing wheat that will be made 
into bread in the Wichita bakery or a farmer in Georgia is 
selling peaches to schools through a food hub in Atlanta, local 
food systems mean a win-win for agriculture and the local 
economy. And those are big wins. In Michigan, we know that for 
every household that would spend just $10 more on locally grown 
food, we could put $40 million back into our economy. When we 
buy local, we support local jobs.
    The growing demand for local food has also created great 
opportunities for young and beginning farmers, which is a big 
priority for us on the committee. Through farmers' markets and 
food hubs, new farmers are getting help marketing, aggregating, 
and processing their products.
    We also know how important local food systems have been in 
this very difficult economy. Food Policy Councils, farmers' 
markets, co-ops, food hubs are bringing farmers together with 
low-income school districts, food banks, grocers, and food 
deserts to provide fruits, vegetables, and other healthy 
products to families in need.
    This is not always an easy task. Resources like the Healthy 
Food Financing Initiative can help bridge the gap and have 
helped new grocers get established in places like Philadelphia 
and Detroit. These stores are making profits and providing an 
important--meeting an important need in local communities and 
using food hubs to connect with local farmers.
    We know that, too often, parents who are struggling 
multiple jobs and working long hours find it difficult to 
prepare healthy meals for their kids. That is why the nutrition 
education efforts, coupled with incentives to buy healthy, 
nutritious foods, are so important to so many families in so 
many communities.
    The sad irony is that as the economy declines and so many 
people lost their jobs, there was more need for food help in 
community food banks, but at the same time, fewer people had 
the resources to make the donations to the organizations that 
could help. They were squeezed on both sides. But through 
innovation and creative partnerships, farmers and local food 
systems are helping to bridge the gap.
    One of our very first hearings focused on accountability, 
stretching every dollar to get the best results, eliminating 
duplication, cutting red tape, getting better results for 
everyone. That is still the lens through which I view the farm 
bill. Local food programs represent a very small percentage of 
the farm bill, but they make a very big impact in our 
communities, creating jobs and improving access to locally 
grown foods.
    The continued success of the agricultural economy and the 
continued growth of jobs in agriculture require both-- not 
either/or, both--traditional production agriculture as well as 
local efforts. America's farmers are not just feeding the 
world, although they are. They are also feeding their neighbors 
and the local community. Local food efforts are leveraging 
private dollars to create more economic impact in rural 
communities and more choices for consumers.
    So I want to thank all of our excellent witnesses that are 
here today, certainly thanking the Secretary, and I will 
introduce him more formally in a moment, but we appreciate both 
the work of Secretary Vilsack and the Department and also all 
of you who are involved in very, very important work in 
communities all across America.
    Without objection, I would like to submit for the record a 
letter from 49 nutrition and hunger groups supporting key 
programs that protect against hunger, improve nutrition and 
health outcomes, and strengthen community-based initiatives 
that link farmers with consumers and increase access to healthy 
food.
    [The letter can be found on page 114 in the appendix.]
    Chairwoman Stabenow. I would now like to turn to my friend 
and Ranking Member Senator Roberts for his opening remarks.

 STATEMENT OF HON. PAT ROBERTS, U.S. SENATOR FROM THE STATE OF 
                             KANSAS

    Senator Roberts. Well, I thank my friend. Madam Chairwoman, 
thank you for our witnesses for joining today.
    And Secretary Tom, it is good to see you here, and thank 
you for your cooperation as we work together to protect the 
food safety of our country from threats that we both know 
exist. I truly appreciate your cooperation, your insight, and 
your support. So it is good to see you here today and we look 
forward to your testimony.
    And I look forward to hearing from each of the witnesses as 
we talk about the next farm bill and how we shape policy, 
specifically in the areas of nutrition programs and the 
marketing of local and regional products.
    To those producers who market their crops locally, special 
congratulations and keep up the good work. You are part of the 
fastest growing sector in agriculture, and I commend farmers 
and ranchers around the country for taking advantage of 
opportunities to add value to their products. This exciting and 
fast paced growth helps bring new opportunities to rural areas.
    But I must caution that the belief that locally grown and 
purchased food is inherently better, safer, more 
environmentally sustainable than food produced elsewhere in our 
country can pit one farmer against another farmer, town against 
town, and State against State. All food grown in this country 
is local to their communities regardless of where it is sold. 
Now is a time when all of agriculture needs to come under one 
tent to meet the growing demands of a troubled and hungry world 
and a global population expected to hit nine billion people in 
several decades.
    I agree that a freshly sliced ripe tomato grown from your 
backyard and garden, and using a little more sodium than 
perhaps recommended by the Secretary of Health and Human 
Services----
    [Laughter.]
    Senator Roberts. --can be quite tasty throughout most of 
the year. However, this is just not practical in Kansas and 
many other States. So sometimes purchasing a tomato grown in 
Southeast Kansas at a local farmers' market on a hot summer day 
makes the most sense, big time. And sometimes purchasing a 
tomato grown in Florida, however, at the local grocery store 
during the cold winter months makes the most sense.
    Regardless of the season, consumers continue to demand more 
local products and many businesses and markets are meeting this 
demand without the need for taxpayer support.
    The Department recently released a report highlighting 27 
programs--27--geared toward the local foods sector. This is 
somewhat concerning given our budget situation and coupled with 
our mission to reduce waste and duplication and redundancy. I 
know the Secretary has been working very hard on this. As we 
hear from our witnesses here today, I look forward to hearing 
how we can consolidate, how we can streamline, how we can 
consider programs that are the best use of our taxpayer 
dollars, just like we asked our conservation and rural 
development and energy witnesses in previous hearings.
    On the nutrition front, the President has requested $70 
billion for 2013 to fund the benefits in the Supplemental 
Nutrition Assistant Program, SNAP, or formerly known as Food 
Stamps. With a retailer trafficking rate of one percent and 
improper benefits payments totaling 3.8 percent, annual SNAP 
errors total $3.4 billion. Now, let me repeat that, $3.4 
billion per year in errors. Now, I want to point out to my 
colleagues that the total is over two-thirds of the annual 
support programs for our commodity programs that we have been 
providing to farmers nationwide who produce most of our food 
and fiber. We should be at least as motivated to eliminate 
fraud, waste, and abuse loopholes and to find efficiencies--all 
hard to do, I know--in SNAP as others are motivated to 
eliminate commodity safety net programs.
    I appreciate very much the Secretary taking his very 
valuable time to testify and I look forward to today's hearing. 
Thank you, Madam Chairman.
    Chairwoman Stabenow. Thank you very much.
    And before proceeding, I certainly welcome written opening 
statements from colleagues this morning, and I know that 
Senator Brown is going to have to leave for another hearing and 
has a witness that he wanted to recognize and introduce who 
will be on the second panel, so Senator Brown, will you----

STATEMENT OF HON. SHERROD BROWN, U.S. SENATOR FROM THE STATE OF 
                              OHIO

    Senator Brown. Thank you, Madam Chair, and thank you for 
going out of order, and I welcome Secretary Vilsack.
    I want to introduce Anne Goodman, who is the CEO and has 
been for a dozen years of the Cleveland Foodbank. It is award 
winning, one of the best food banks in the United States of 
America and she makes us proud in greater Cleveland for the 
work she and her paid staff and huge number of volunteer staff 
do. I have been to her food bank maybe three, four, or five 
times by now and seen the kind of work she does and so 
appreciate it. She is one of many heroes in this country 
holding the line against hunger.
    I so appreciate, too, the work that Secretary Vilsack is 
doing on understanding that USDA is reporting record lows of 
fraud and abuse in the SNAP program. I know the attention you 
pay to that and your Department pays to that. It is such an 
important, important program for our country, and to undermine 
it and make threats about cutting it because of fraud and abuse 
is wrong-headed. We need to attack fraud and abuse, for sure, 
but the Secretary is doing a good job. We need to continue 
that.
    I am so appreciative of the work that he does and that Anne 
Goodman does for my community, so thank you, Madam Chair.
    Chairwoman Stabenow. Thank you very much.
    And now let me turn to Secretary Vilsack, certainly no 
stranger to the committee. We very much appreciate your coming 
back before us on another very important part of the farm bill.
    As we all know, Secretary Vilsack is working hard to 
strengthen our American agriculture economy, to revitalize 
rural communities, protect and conserve our natural resources, 
and to provide a safe, nutritious, and sufficient food supply 
for the American people. We all know that he served as Governor 
of Iowa for two terms before coming to serve our country in his 
current position and has also been in the role of a State 
Senator and a mayor, and so has served at every level and we 
greatly appreciate your service and the leadership you are 
providing with the Department of Agriculture. So welcome this 
morning.

STATEMENT OF HON. THOMAS VILSACK, SECRETARY, U.S. DEPARTMENT OF 
                          AGRICULTURE

    Secretary Vilsack. Madam Chair, thank you very much, and to 
Senator Roberts, thank you, and to the committee members for 
this opportunity.
    You have my written statement, but if I could just spend a 
minute or two to create a context for why this discussion of 
local and regional food systems is important.
    I would like to take you back to the mid-1980s. At that 
time, I was not in public life. I was a county seat lawyer. I 
was operating a county seat law firm where, basically, whatever 
walked in the door was what we attended to. We were in the 
midst of a very difficult crisis in farm country. There were 
many human tragedies that were reported. There were 
foreclosures. There were suicides. There were killings. It was 
a very, very sad time. I had the great privilege of 
representing a number of farmers who were being foreclosed upon 
and worked hard to make sure that they had an opportunity to 
stay in business.
    As a result of that experience and listening to the tragic 
stories of these families being torn apart by financial stress, 
I decided that if I ever had the opportunity to be engaged in 
public life, that I would do everything that I could possibly 
do to provide as many diverse opportunities for income for 
rural folks as I could find. And I am proud to say that USDA is 
engaged in that effort and that is what we are going to discuss 
today, one element of a number of elements that we are focused 
on.
    To rebuild the rural economy in this country, to provide 
hope and opportunity for families in rural America, we 
obviously start with production agriculture. There is no 
question about that. That is the heart and soul of rural 
America. And that is why we are proud of the work that those 
producers are doing in feeding America and feeding the world 
and leading us in record exports, adding value, creating new 
opportunities and efficiencies.
    We want to complement what they do, and one way we can 
complement that is by the bio-based economy, and I want to 
acknowledge the Chair's work in putting together a proposal 
that would help advance bio-based opportunities in this 
country, which creates yet another income opportunity for 
farmers and ranchers and growers.
    The conservation efforts that this committee has supported 
so well creates tremendous opportunities for outdoor 
recreation, which we know is a multi-hundred-billion dollar 
enterprise that can create new jobs and opportunity in rural 
America.
    In the same vein, local and regional food systems, which, 
as Senator Roberts indicated, is a fast-growing aspect of 
agriculture, can, indeed, help create opportunities to maintain 
wealth in rural communities, help to create new opportunities 
for entrepreneurship and innovation, an entry point for young 
farmers to get into this business, and a job creator.
    We are using all of the programs at USDA to help all 
aspects of agriculture and we are proud of the ``Know Your 
Farmer'' compass that Senator Roberts alluded to earlier, a 
report that documents ways in which we are using existing 
programs that not only help regional and local food systems, 
but are also being used to help improve the quality of life in 
communities, to expand production agricultural opportunities, 
to encourage small business development, to expand 
opportunities in outdoor recreation and the bio-based economy. 
So these programs that are reported in the compass, the ``Know 
Your Farmer, Know Your Food'' compass, are not solely directed 
to local and regional food systems. They are just basically 
part of the arsenal, the tool chest that we use. Can there be 
efficiencies? Absolutely. Can there be consolidation of 
programs? For sure. But we want to make sure that we have 
enough flexibility to be able to use them to advance the bio-
based economy, to advance production agriculture, to advance 
outdoor recreational opportunities, and to advance local and 
regional food systems.
    I will not spend the committee's time talking in great 
detail about SNAP because I suspect that there are going to be 
a number of questions about that. Just let me say that in the 
last year that we have data for, over 784,000 investigations 
and inquiries were made of individuals in terms of SNAP. Forty-
four thousand people were disqualified. We have the lowest 
error rate and the lowest fraud rate we have had in the history 
of the program. We are not stopping there. We are going to 
continue to focus on this issue. We have new rules and 
regulations that we are proposing, additional guidance that we 
are providing to States. So we are very serious about 
maintaining the integrity of this program, and we understand 
that that is our responsibility.
    At the same time, this is a program that is providing help 
and assistance to millions of Americans, and many of them are 
working. Forty-one percent of SNAP beneficiaries currently have 
earnings in the family. Four major groups make up the SNAP 
beneficiaries: Senior citizens, people with disabilities, 
children, and working men and women. We obviously want to help 
those folks. We want to value work. We want to acknowledge that 
they are playing by the rules. And we want to continue to have 
a strong and viable program.
    So, Madam Chair, we appreciate this opportunity, look 
forward to the questions, and thanks again for the chance to 
visit with you today.
    [The prepared statement of Hon. Thomas Vilsack can be found 
on page 78 in the appendix.]
    Chairwoman Stabenow. Well, thank you very much.
    I wonder if we might start by your expanding on how you see 
USDA's role in helping to facilitate these new processes around 
local sourcing. We have got a lot of consumer demand for 
locally and regionally produced products. That continues to 
grow. We have a lot of companies and schools and hospitals that 
are now engaging in local sourcing. What do you see as the 
USDA's role in really facilitating that process?
    Secretary Vilsack. I think there are three basic 
responsibilities. One, providing opportunities for people to 
get into this business to begin with, whether they are on the 
producer side or on the retailer side. That is why we have the 
Value-Added Producer Grant Program. That is why we have the 
Beginning Farmer and Rancher Development Program. It is why we 
provide FSA ownership and operating loans to individuals who 
want to get into a business where they are selling locally.
    We also have a responsibility to create local markets and 
to support local regional food systems, the way in which these 
products can be marketed. That is why we have a Farmers' Market 
Promotion Program, a 54 percent increase in the number of 
farmers' markets in the last three years. It is why we maintain 
the Specialty Crop Block Grant that was scheduled to be 
eliminated by the previous administration. And it is why we 
have used the Rural Cooperative Development effort to try to 
promote opportunities for the development of farmers' markets, 
food hubs, ways in which these items can be marketed to local 
institutions and local consumers.
    And finally, there is the need for technical assistance and 
infrastructure, brick and mortar opportunities. There are 
communities that are interested in having year-long farmers' 
markets. To do that in some climates requires brick and mortar 
opportunities, so that is why we use the B and I Guaranteed 
Loan Program, the Rural Enterprise and Opportunity Grant 
Program. We also provide technical assistance through the small 
help desk that FSIS has established as well as using the EQIP 
program to help expand high hoop houses to extend the growing 
season.
    So it is establishing an opportunity, creating markets, and 
providing the infrastructure that supports those markets.
    Chairwoman Stabenow. Thank you. Talk a little bit more 
about new and beginning farmers. I know this is an area of 
great concern to you and to me and, I think, to all of us, when 
the average of an American farmer is 58. We talk a lot about 
new opportunities, but in this context, could you talk a little 
bit more about how local and regional food systems are helping 
new farmers be able to get into agriculture and be able to 
succeed.
    Secretary Vilsack. One of the trends that we are seeing is 
that a lot of people in their 20s and 30s are very interested 
in coming back to rural areas and becoming interested in 
farming, perhaps not on a large scale because the capital needs 
are so intense, but they would like to have their foot in the 
door. They would like to have an entry point. And certainly 
developing a small value-added operation--maybe it is an 
organic operation, it does not necessarily have to be--is one 
way of doing that. Or maybe it is taking a portion of the 
production agricultural system and setting aside an acre or two 
and diversifying that operation and giving a family member and 
opportunity to get back into the business.
    So we provide loans for farmers through the Ownership and 
Operating Loan Program of FSA. We have got the Beginning Farmer 
and Rancher Development Program that provides resources to 
enable people to have a good business plan that they, in turn, 
can take to FSA or a bank to get the initial financing. We try 
to establish with Farm-to-School Programs and other activities 
opportunities for additional market and an awareness of the 
local market, both on the institutional purchaser side and on 
the consumer side. So this is an entry point.
    Now, having said that, I think it is going to be very 
important for this committee, as you craft the farm bill, to be 
very acutely aware of the challenges we have with the aging 
nature of our farmers, particularly our production agriculture 
operations, and to look not just at the farm bill provisions, 
but also at tax and regulatory provisions. There needs to be 
some understanding and appreciation for how crop insurance 
should be managed differently between beginning operations and 
more mature operations, what the credit needs are of beginning 
operations, and how difficult it is today to transfer land or 
even to consider transferring land because of the way the tax 
structures are.
    Chairwoman Stabenow. And finally, let me ask, we have heard 
you talk about the SNAP program and congratulate you for 
focusing on fraud and abuse in the system, because in this 
climate, we need every dollar to go to somebody who needs it 
because there are just way too many people that need temporary 
help right now. But in the farm bill, what additional measures 
would you suggest that we should be providing you in terms of 
tools to be able to fight fraud and abuse, to be able to 
improve the programs, because we want to make sure those 
dollars are going exactly where they need to be.
    Secretary Vilsack. Well, certainly in the area of fraud, we 
are deeply concerned about high-risk areas and locations, and 
oftentimes those higher-risk locations are not large grocery 
store chain stores where a substantial percentage--84 percent 
of SNAP benefits are redeemed in 16 percent of the stores in 
America. But many of the fraud issues that we are dealing with 
are in small-scale venues.
    Tightening up what stores can qualify for SNAP 
participation would be helpful. Right now, the rules are fairly 
loose and it allows smaller-scale stores to participate, and 
oftentimes we find repeat patterns of trafficking and 
difficulties in those stores. Even though we have sanctioned 
them, even though we have disqualified certain owners, the 
location gets transferred to a new owner and it ends up 
creating the same type of opportunity. So that would be one 
suggestion I would make in the time. I see my time has expired.
    Chairwoman Stabenow. Yes. Well, thank you very much. My 
time is up and I will turn to Senator Roberts.
    Senator Roberts. Well, thank you, Mr. Secretary. My 
questions are probably redundant, but that has never stopped me 
before.
    The Department's ``Know Your Farmer, Know Your Food'' 
report issued last week, as I indicated in my opening 
statement, highlighted, and then you talked about this, 27 
programs that target local and regional agriculture food 
systems--27 programs for the fastest-growing segment of 
agriculture. My question is pretty simple, and you have already 
gotten into this. Are 27 different programs necessary for a 
sector of agriculture that represents less than two percent of 
our agricultural economy but seems to be growing like 
gangbusters on their own? With budgets as tight as they are, 
should we not streamline and consolidate and, most of all, 
focus on programs that deliver the most bang for the taxpayer 
buck?
    Now, you said in your opening statement, and you have 
already basically answered the Chairwoman's question, but you 
said in your opening statement that you have some new requests 
to allow you to better streamline this or to consolidate. Could 
you focus on that and just--but you have also said in your 
statement that you need flexibility in certain areas, and that 
maybe one program might work in one particular area but another 
program would fit in another area. I just do not think we need 
27. At any rate, would you amplify on that, sir, and what do 
you need from us?
    Secretary Vilsack. Well, I think there needs to be a 
program that makes it a little bit easier for people to get in 
the farming business. That does not necessarily have to be 
limited to local and regional food systems. It can also be 
production agricultural opportunities.
    Senator Roberts. Sure.
    Secretary Vilsack. So that is one area. And if you had a 
program that basically consolidated many of the programs that 
are currently providing that entry point with enough 
flexibility to use it for production agriculture or for local 
regional food systems, you could satisfy--you could have fewer 
programs and still satisfy the need.
    We obviously want to continue to support markets, both 
local and foreign market opportunities, and that is why the 
Farmers' Market Promotion Program is an important tool. The 
Community Facility Grant Program is used for many purposes. It 
is used for hospitals, police stations, fire stations, you know 
this. But it can also be used for brick and mortar 
opportunities to build and to expand on a farmers' market and 
create a better venue for more opportunities. The ability to 
use that program flexibly and to have adequate resources in the 
program obviously will allow us to use that single program for 
brick and mortar opportunities.
    You may be focusing on a larger-scale operation. The 
Chairwoman is certainly familiar with Eastern Market. She 
certainly has made me familiar with Eastern Market. And that is 
a rather large operation and it may not be sufficient for a 
Community Facility Grant because it is located in an urban 
area. Maybe a little bit more flexibility with our Business and 
Industry Loan Program in terms of precisely where we can invest 
those resources, if it can be of help to rural facilities as 
opposed to solely being located in a rural community.
    So there are many ways to deal with this. But I want to 
point out that these 27 programs and regulations and so forth 
that are identified are not necessarily solely dedicated to 
local and regional food systems. They also serve--for example, 
the EQIP program is mentioned there. Well, you know very well 
that EQIP is primarily being used by production agriculture, as 
it should be.
    Senator Roberts. I appreciate that. Your own Economic 
Research Service found that producers growing and selling 
locally employed 13 workers per $13 million in revenue in 2008. 
What definition of ``local'' did the ERS use in their analysis? 
Does the Department have a standard definition of ``local'' 
that is used all across the program?
    Secretary Vilsack. Senator, I want to make sure that I 
understand. There has been some confusion about that ERS 
report. I want to make sure that we all understand. For every 
million dollars of sales to local and regional food systems, it 
supports 13 operators. So, in other words, 13 farming 
operations----
    Senator Roberts. Right.
    Secretary Vilsack. --small-scale, are supported. On the 
production agriculture scale, it is one million for every 
seven-and-a-half producers. That is basically the statistic.
    The definitions are very, very complicated, and I think you 
have actually adequately pointed this out in your opening 
statement, that local--everything that is sold, regardless of 
where it ultimately ends up, has a local impact. I think ERS 
basically was taking a look at a geographic region that was 
fairly constrained. When I talk about this, I talk about areas 
within 50 to 100 miles that surround when we talk about schools 
and institutional purchasers.
    Senator Roberts. Would the Department want to define 
``local'' so it has a standard definition, and what would that 
definition be?
    Secretary Vilsack. Well----
    Senator Roberts. Let us let the last part of that go. Just 
let me ask you, would you like to define what ``local'' means 
so we have a standard definition?
    Secretary Vilsack. To be candid with you, Senator, I would 
prefer that the committee focus on its single definition of 
``rural.'' That is causing far more confusion than the 
``local'' definition. If we had a single definition of 
``rural,'' we could apply that to this topic, as well.
    I think we have at least 11 different definitions. We 
really need to be thinking carefully about what it means to 
have a rural development aspect of USDA and how we can help 
rural communities. Even if it is investing in Eastern Market in 
the middle of a city, that could be of some benefit to folks 
who live, work, and raise their families in rural areas.
    Senator Roberts. You are not using any of this money to 
recruit three-point shooters for Iowa State when they beat 
Kansas State, are you?
    [Laughter.]
    Secretary Vilsack. I am not going to--can I take the Fifth 
on that?
    [Laughter.]
    Senator Roberts. I am looking into that.
    Secretary Vilsack. Did we not win twice this year, if I am 
not mistaken?
    Senator Roberts. Yes, and if Baylor had not defeated you, 
we would have played you again for the third shot, but--
    Secretary Vilsack. Well, actually, we beat Baylor just a 
few days ago. I want to bring you up to date on this. We are 
now in the top 25.
    [Laughter.]
    Senator Roberts. We have to play Baylor.
    Chairwoman Stabenow. All right----
    Senator Roberts. Then if we beat Baylor, we play you.
    Secretary Vilsack. Good luck, Senator.
    Senator Roberts. But it is that one guy that--I just 
understood that, somehow, he got a grant from the USDA on the 
three-point shots.
    Secretary Vilsack. I must say, I love Fred Horburg. I will 
do anything for him.
    Chairwoman Stabenow. I just want to point out for the 
record that the Big Ten Championship Title is shared by 
Michigan and Michigan State, just for the record, this year.
    [Laughter.]
    Chairwoman Stabenow. So we are going on to the tournament.
    Senator Klobuchar.
    Senator Klobuchar. Okay. That is a hard act to follow, but 
I would assume that those players all have had nutritious food 
in Iowa, is that correct?
    Secretary Vilsack. Yes.
    Senator Klobuchar. Okay. Good. Back to our topic at hand 
here, I want to thank you for your work implementing the 
nutrition bill. We were very pleased to work on it and I want 
to thank the Chairwoman for her leadership. And I wanted to 
talk about a piece of that, and that is the vending machines. 
What are you doing to ensure that the food and beverages sold 
in the vending machines stack up to the nutrition standards 
that we now have for the lunch lines?
    Secretary Vilsack. Senator, we will be coming out with a 
rule on what we refer to as competitive foods, which would 
include vending machines and a la carte lines, which we believe 
is very consistent with the efforts at improving the quality of 
meals and aligning them with the dietary guidelines. And I 
think, frankly, we want to make that healthy choice a 
relatively easy choice. We want to make an informed choice. And 
I think our rule will do that.
    Senator Klobuchar. Good. And do you know when that will 
come out?
    Secretary Vilsack. You know, I never want to guess on all 
the various folks who have to sign off on these things, but I 
can tell you that it is our intent to get this out very 
quickly.
    Senator Klobuchar. Okay. As you may know, 110 Minnesota 
elementary schools are participating in the Fresh Fruit and 
Vegetable Program. Could you talk a little bit about that and 
how it is going and why you think it is important.
    Secretary Vilsack. Well, we have a very interesting 
opportunity that we are exploring in Michigan and Florida on 
the issue of fresh fruits and vegetables. We have to get 
through a protest process, but we really want to see whether or 
not we can empower schools to use more of their resources that 
are provided for school lunch to purchase locally fresh fruits 
and vegetables and we are going to have this pilot in two 
States to see how it works.
    You know, I think there is tremendous opportunity here, not 
only in terms of purchasing but also encouraging schools to 
have gardens, communities to have gardens that would be 
supportive. We know from a number of examples that there are 
youngsters who learn great lessons from growing something in a 
garden and then seeing it in an a la carte line or in a salad 
bar or in a meal that they consume at school.
    And we at USDA have been engaged in this. We have a 
People's Garden Program. There are over 1,500 People's Gardens. 
I am proud to say that we donated almost 900,000 pounds of 
fruits and vegetables to food banks across the country where 
USDA offices are located.
    So we are heavily engaged in this. We have got the 
Department of Defense issue. We have got the Fresh Fruit Snack 
Program. We have got this pilot that we are working. We are 
working in Massachusetts on a SNAP effort to see whether or not 
point-of-sale incentives can encourage SNAP families to 
participate and purchase more fruits and vegetables. So there 
is a concerted effort and a consistent effort throughout all of 
our programs.
    Senator Klobuchar. Okay. And then how about how the school 
districts are doing? Obviously, they are facing budget cuts and 
they want to do their best to serve healthy foods and we want 
to do our best to make sure they have the tools they need to do 
that. Could you talk a little bit about what USDA is doing to 
make sure that school districts have the support that they need 
to comply with the rules.
    Secretary Vilsack. Well, we--the Congress was kind enough 
to provide for the first time in 30 years additional support 
for the School Lunch and School Breakfast Program with a six-
cent per meal reimbursement rate increase, which is the first 
non-inflationary rate increase that schools could qualify for. 
We are encouraging schools to participate and to adopt the new 
nutrition standards quickly so that they can benefit from that.
    We are also working with schools to make sure that their 
pricing of meals is properly aligned to make sure that they are 
utilizing their resources properly.
    We are also trying to make the certification and the 
qualification programs and processes for participation in the 
various programs easier and less of an administrative burden, 
particularly in communities that have high unemployment or high 
poverty rates. By making it streamlined, we are hopeful to save 
administrative dollars that are going into paperwork and 
redirect it into improving the nutritional value of the meals.
    Senator Klobuchar. Thank you. And then one last question. 
This past December, I joined a number of our colleagues. We 
sent a letter to you urging you and Ambassador Kirk to defend 
the country of origin labeling law from challenges at the WTO. 
I appreciate your commitment to ensuring that you will work 
with our trade representatives on the implementation of this 
law. How do you see the ``Know Your Farmer, Know Your Food'' 
initiative as helping producers market their products to 
consumers interested in this information?
    Secretary Vilsack. Well, you know, part of the great thing 
about this effort is that it allows consumers to personally get 
to know the producers. You go to a farmers' market, you can see 
tremendous community activity and involvement, conversation and 
communication taking place. And as a result, I think we are 
getting consumers that have a better understanding, and maybe 
hopefully a better appreciation for American farmers and 
ranchers.
    I would say that one group of Americans that are under-
valued, under-appreciated are our farmers and ranchers, and by 
having these opportunities to meet producers, to talk about the 
weather conditions and the impact on crops, to talk about pests 
and diseases that might impact some of this--there may be less 
at a farmers' market one year than another, people get to know 
why that is so--there may be a better appreciation for how 
challenging this business is, whether it is a local and 
regional food system effort or production agriculture that is 
exporting to China.
    Senator Klobuchar. Thank you very much.
    Chairwoman Stabenow. Thank you.
    Senator Johanns.
    Senator Johanns. Thank you, Madam Chair.
    Mr. Secretary, let me just start out and again give you 
some applause for the Ag Outlook Forum. As you know, the former 
Secretaries participated in that. It was great to be with them 
again. But, secondly, I looked around the room. Well over 1,000 
attendees, which is a remarkable turnout for a program, so 
congratulations to you and your team. It was really good.
    Secretary Vilsack. Well, Senator, people really, really 
appreciated that forum, and we actually had an overflow room. 
You would have seen another thousand people. It was a record 
attendance. So we appreciate your participation in it.
    Senator Johanns. Yes, glad to do it.
    You, in your testimony, highlighted the Farmers' Marketing 
Promotion Program. You supported during your time as Secretary 
a number of programs to try to boost local farming initiatives. 
You have emphasized the importance of extending energy title 
programs and a whole host of items. Yet all of these programs, 
as you know, do not have a baseline. So at the end of this 
year, they just simply expire in terms of not having funding to 
go forward. In addition, in the budget that was submitted by 
the USDA, there is not any money, I think the footnote 
indicated, subject to reauthorization or something of that 
nature.
    Give us your best advice on how to handle this long, long 
list of programs, many of which have a lot of support, not only 
at the USDA but in the country, because today, there just is 
not funding available, and as you know, it is going to be a 
very, very tight budget process to even get a farm bill. What 
are your thoughts on how we figure out how to create or get the 
money to pay for those programs?
    Secretary Vilsack. Senator, I think the key here is to take 
a look at programs that you know are going to continue to exist 
and figure out how to make them flexible enough to give the 
Department the capacity to use them in creative ways.
    I will take the Business and Industry Loan Program, for 
example. That program could help brick and mortar opportunities 
for local and regional food systems. It could also help the 
bio-based economy. The problem is that, currently, the only way 
we can use that is for, as you well know, for commercially 
viable products and things that have already been established 
in the market, and the result of that is that it really narrows 
what we can do with that program. There is a tremendous 
capacity in that program, and with fees and so forth, it is not 
a great strain on the budget. To the extent that you can take 
existing programs and create the flexibility to use them 
creatively, that is number one.
    Number two, we are going to be challenged at USDA to 
continue to look for new partners in all of this, and that is 
why we have reached out to the foundation world. We think 
foundations not only can provide grant opportunities, but they 
also invest money to be able to make grants, and we are 
encouraging foundations to consider investment opportunities in 
rural areas. The problem has been that we have not really done 
a good job of acquainting people with what those opportunities 
are.
    The third thing is to look outside the farm bill. There are 
the constraints of the farm bill. When we deal with beginning 
farmers, for example, as I alluded to earlier, I think there 
are tax issues there that probably could be as helpful and as 
beneficial in terms of being able to promote land transfers and 
things of that nature that we often do not talk about. We talk 
about the estate tax, and that is certainly understandable. But 
right now, as you well know, in your State and my State, land 
values are going up and people are landlocked because they are 
concerned about the income tax consequences. So I think there 
are a lot of creative ways to deal with this even though we are 
constrained fiscally.
    Senator Johanns. You know, I had a group in my office just 
within the last few days and the purpose for the meeting--it 
was a group from back home--they wanted to talk about 
additional funding for ag research. One need only look back 
briefly at what we have done with ag research in our country, 
all across the United States, and it is really the reason why 
agriculture has done so many positive things here.
    I offered this statement, and I would like your assessment 
of it. The more we take and spend on other programs in the farm 
bill, the less money is going to be available for important 
programs like research and other things. And the old days of, 
well, we got that out of the farm bill, now let us go back and 
they will give us a whole bunch more for ag research is really 
over because we do not have the money.
    Offer your thoughts on balancing the priorities in the farm 
bill and trying to figure out how do we get money to programs 
that have really made a difference, have really been game 
changers, like research.
    Secretary Vilsack. Well, as you know, Senator, I am very 
interested in seeing a continued investment in research, an 
extended investment in research, and our budget has reflected 
that. And the President also believes in the power of research.
    You know, again, I think it is about being really creative 
of how those research dollars are used to promote multiple 
purposes. I mean, the challenge that--that is one challenge.
    The second challenge is to continue to promote the 
competitive nature of research because that compels land grant 
universities to be creative in terms of partnerships and 
collaborations that stretch those research dollars further than 
they might otherwise be stretched--a private sector partner, 
another land grant university partner, a foundation partner. 
You know, we are challenged to be creative. That is what this 
time forces us to do, and actually, it is an exciting time. I 
do not see this as a difficult and challenging time. I see this 
as an exciting opportunity for us to really be creative. The 
key here is for you all to give us the flexibility to be 
creative, not to pigeonhole us in specific program requirements 
that make it very difficult for us to be collaborative.
    And finally, allow us to focus on regional opportunities, 
not just specific communities or specific business 
opportunities. Enable us to really use our resources in 
regional strategies because that is also a way of extending 
limited resources and actually getting a bigger bang for your 
buck.
    Senator Johanns. Thank you, Madam Chair.
    Chairwoman Stabenow. Thank you.
    Senator Boozman.
    Senator Boozman. Thank you, Madam Chair.
    Mr. Secretary, in Arkansas, we have had issues with some of 
our farmers' markets because of a lack of a definition of 
``local.'' People are selling products there as local, and yet 
they are not local. So some clarity would be helpful. I think 
Senator Roberts alluded to that earlier.
    The other problem that we have got is really to define 
``rural.'' You know, we have got the same sort of thing. So 
could you comment on that and kind of tell us how that is 
progressing? That would really help as we go forward.
    Secretary Vilsack. Well, Senator, first of all, let me say 
that we look forward to working with the committee and with you 
and other members of the committee on these definitional issues 
because they are important, and we look forward to figuring out 
ideas creatively to deal with these issues.
    But let me just say, as it relates to the definition of 
rural, we have been too focused on population numbers--too 
focused on population numbers--as opposed to the impact that a 
particular investment could have on folks in rural areas. And I 
think we would be better off having a definition of rural that 
allows us to look at a number of criteria and to score or gauge 
those criteria in defining the impact of an investment on rural 
areas as opposed to saying that investment must be made in a 
community of 10,000 or 5,000 or 20,000 or 50,000.
    That is--to Senator Johanns's question, that is the kind of 
narrowness that I understand in the past, but in this day and 
age, please, give us the capacity and then judge us by the 
results of our investments as opposed to pigeonholing us in a 
particular--so you can only invest in this community with this 
program. Give us the capacity to look regionally, to think 
creatively, to look for collaborative partnerships. So the 
definition of ``rural,'' it seems to me, ought to be based on a 
series of factors that we can evaluate.
    Senator Boozman. I agree, and certainly, I think the 
committee would agree in the sense that we need to go forward 
and use that input and committee input and then actually come 
up with a definition. That would be really helpful.
    The other thing I would really like for you to look at for 
me, I was at the Boonville facility, the Dale Bumpers Research 
Facility, this last week. It is scheduled for closure. It is a 
2,000-acre facility, and we are talking about local markets. 
The research that is going on there really is unique in the 
sense that it is small farm production-type research. It is the 
only place in the country that is doing research on lands and 
goats, which with the increased immigration, there is a 
tremendous market for those kind of things right now, lots of 
that type of research. It is the only place in the country, 
too, where they are doing phosphorous, seeing how that is 
affecting our streams and things like that. So as we have the 
local production going, then there are byproducts from that as 
you fertilize the soil and things like that.
    But I would really like for you to look at that facility. I 
think it is unique. I am not just saying that because I happen 
to be from Arkansas and represent that. But truly, the research 
that is going on there--I am seeing some snickers back in the 
audience, but the research going on there, I do not think there 
is any place to duplicate it.
    And then the other problem is, if we decided in the future 
that we needed to get it done, some of the structures that are 
set up literally would take ten or 15 years to do. But that is 
just kind of for what it is worth.
    Secretary Vilsack. Senator, you know, these are always 
really hard decisions and we will--we take them very seriously 
and we understand that the research that is being done in all 
these facilities is important, and our belief is that that 
important research is going to continue.
    Let me just simply say one other aspect of these closings 
that is to the questions that we have talked about earlier 
about beginning farmers. Many of these facilities are 
surrounded by hundreds, in some cases thousands, of acres of 
land. And right now, there is a very prescriptive way in which 
USDA is required to deal with the land that they will have to 
get rid of or sell or transfer.
    And it seems to us that maybe this is an opportunity for us 
to take a look at incenting returning veterans who want to get 
into farming and beginning farming operations by making that 
land more available than it is today and giving us a few more 
opportunities and a few more tools to use that land in a 
creative way in partnership with a land grant university or in 
partnership with another university that may be co-located or 
near there. We think that is another creative solution to this 
issue of how do beginning farmers get started. Well, maybe the 
Federal Government can lease them land. How do we bring 
veterans an opportunity if they are really interested in 
returning to their home State and actually getting in the 
farming business.
    Senator Boozman. No, I agree, and yet I think that another 
way to look at it is to do just that, that some of this unique 
research that has been started to carry that on, you know, with 
the veterans' help.
    So thank you, Madam Chair.
    Chairwoman Stabenow. Thank you very much, and thank you 
again, Mr. Secretary. We appreciate your service and we 
appreciate your coming today on a very important topic. So we 
look forward to working with you on many of these ideas that 
you have laid out today, so thank you very much.
    Secretary Vilsack. Thank you.
    Chairwoman Stabenow. And we will ask our second panel to 
come forward. Senator Roberts will be back in a moment. He 
stepped out for the Finance Committee, but we will ask folks to 
come forward. Thank you.
    [Pause.]
    Chairwoman Stabenow. Well, thank you very much to each of 
you for joining us today for this very important hearing. We 
appreciate all of your great work, and let me introduce each of 
our witnesses first and then we will turn it over to each of 
you. As you know, we ask for five minutes of verbal testimony. 
We welcome any other written testimony that you would like to 
share with the committee, as well.
    First, I am very pleased to introduce our first witness 
today, a resident of the great City of Detroit, Michigan, Mr. 
Dan Carmody, who is the President of Eastern Market Corporation 
in Detroit since 2007 when he took the lead in operating the 
region's premier public market and revitalizing the business 
district around the market. He is now leading the charge to 
convert Eastern Market into a healthy metropolitan food hub. 
Before coming to Eastern Market, Mr. Carmody led three 
different economic development organizations throughout the 
Midwest. He provided more than 30 North American Community 
Development Programs with consultant services. So we are very 
pleased to have you and appreciate so much all the great work 
that you are doing in Detroit.
    Now, I would like to turn to Senator Boozman to introduce 
two excellent witnesses. How did you get two witnesses from 
Arkansas today? This must be pretty special--
    Senator Boozman. Because of your generosity.
    Chairwoman Stabenow. Well, we are happy to do it. We are 
very impressed with your witnesses, so Senator Boozman.
    Senator Boozman. Thank you very much. We are really pleased 
to have Jody Hardin from Grady, Arkansas. Jody is a fifth 
generation Arkansas farmer and a pioneer and advocate for local 
access in Arkansas. He has helped establish several local 
farmers' markets in our State and is a strong advocate for 
local and community-driven agricultural systems.
    I think, Jody, I have heard that testifying before Congress 
is a bit of a family tradition for you all. Jody said his 
grandfather used to testify regularly. But we really are proud 
of you to be here and continue that tradition.
    Ron McCormick is also with us, of Bentonville, Arkansas. 
Ron is the Senior Director for Local and Sustainable Produce 
Sourcing for Walmart. We are proud of Walmart in Arkansas and 
proud of the fact that Walmart has chosen to be a global retail 
leader in providing access to locally sourced foods and other 
sustainable practices. Many people do not realize this, but one 
of Walmart's greatest strengths is logistics, and their 
knowledge and experience can help us clear many hurdles that 
have come between many Americans and the local foods they would 
like to have access to.
    Under Ron's leadership, Walmart has committed to opening as 
many as 300 stores serving food to underserved areas. Walmart 
has pledged to sell one billion lbs of locally sourced foods 
produced by small and medium-sized farmers by 2015. 
Furthermore, Walmart is looking on improved nutrition 
initiatives and is being such a generous partner in the fight 
against hunger in the United States and also in the world. So, 
Ron, thank you very much for being here.
    We are very, very proud of our Arkansas representatives 
today, Madam Chair.
    Chairwoman Stabenow. As you should be, and we welcome them.
    Ms. Goodman, who was introduced already by Senator Sherrod 
Brown, let me just say, has been the President and the CEO of 
the Cleveland Foodbank, the largest hunger relief organization 
in Northeast Ohio, since 1999, and we appreciate all of your 
efforts and welcome you here today, as well.
    And I know that Senator Casey had wanted to be here, Mr. 
Weidman, to be able--and he may hopefully be able to be here. 
He is juggling, as many of our members are today, multiple 
hearings. But we certainly want to welcome you Mr. John Weidman 
comes to us from Philadelphia, Pennsylvania. Mr. Weidman is the 
Deputy Executive Director of the Food Trust, a Philadelphia-
based nonprofit that works to ensure that everyone has access 
to affordable and nutritious food. He provides oversight for 
the organization's National Supermarket Campaign and its 
regional farmers' markets program and led the effort to open 
Philadelphia's Headhouse Farmers' Market. We appreciate also 
your serving on the Pennsylvania Emergency Food Assistance 
Advisory Committee and other important awards.
    So welcome to each and every one of you, and again, we ask 
for five minutes of opening comments before we turn to 
questions. And first, we will turn to Mr. Carmody. Welcome.

      STATEMENT OF DAN CARMODY, PRESIDENT, EASTERN MARKET 
                 CORPORATION, DETROIT, MICHIGAN

    Mr. Carmody. Good morning, Senator. Thank you. It is a 
pleasure to be here, and thank you, members, for hosting this 
really important discussion. Warm greetings from the east side 
of Detroit.
    I thought in this sterile Federal office we would bring you 
a little slice of Eastern Market.
    [Beginning of videotape.]
    Mr. Fogelman. Eastern Market Corporation assumed management 
of the market in August of 2006, and in July of 2007, we 
applied to the USDA to accept Bridge Cards on behalf of the 
farmers and vendors here at the market. The first week that we 
did the Bridge Card program, we accepted $83 in tokens. This 
past July, we sold over $14,000 in tokens.
    Double-Up Food Bucks is a SNAP incentive program. Working 
with the Fair Food Network, Eastern Market Corporation piloted 
the program in the summer of 2009. We kicked it off full-
fledged with them in 2010 and 2011 and it has been incredibly 
successful.
    Basically, the program works like this. Our customers come 
to our Welcome Center and they purchase at least $20 of Food 
Stamp Bridge Card tokens, and we will match them up to $20 with 
a Double-Up Food Buck token. And the difference between the 
Double-Up Food Bucks tokens and the regular ones is the Double-
Up are only good for Michigan-grown fruits and vegetables. So 
it is really a win-win. It puts more produce in the hands of 
the people that often have the least access to it, and it also 
puts more money into our growers' pockets.
    Mr. Jentzen. It is money in the bank. You know, it keeps 
revenue generating.
    Ms. Leadley. The fact that folks can use their EBT here at 
the market and can get access to produce that they have maybe 
not experienced before, and certainly are out of a lot of 
people's price range if they did not have the EBT is really 
awesome.
    Mr. Young. It brings more money back into Detroit, back 
down to the city.
    Mr. Stadler. I think it is really a good thing because it 
helps promote the whole entire marketplace.
    Mr. Gyergyov. I guess that is the bottom line, is just more 
income that we bring in for ourselves.
    Ms. Bielat. Very surprised at the diversity. It is older 
people, younger people, a lot of different races, a lot of 
different ethnicities. It is just the diverse people that 
have----
    Mr. Fogelman. When you add the $791,646 in Bridge Card 
sales since the program began in 2007 to the $236,592 in 
Double-Up Food Bucks distributed over the past three years, you 
have over a million dollars circulated here at Detroit's 
Eastern Market, and that is over a million dollars into the 
pockets of our farmers and vendors, which means over a million 
dollars directly back into the Michigan economy.
    [End of videotape.]
    Mr. Carmody. Now, we are proud of our work to leverage SNAP 
to benefit both consumers and farmers. We think that is the way 
to go to try to make more with the tools we have got. But that 
million dollars is a small drop in the bucket to total SNAP 
redeemed in the City of Detroit, and as we pointed out earlier, 
despite geometric growth, farmers' markets still are a fraction 
of our overall food industry.
    Fortunately, Eastern Market is not just a farmers' market. 
It really is a regional food hub. In addition to our retail 
markets, we also have a wholesale market that serves regional 
growers and we are in a food district surrounded by 80 food 
processing and distribution retail businesses.
    This notion of complementary entrepreneurial small local 
food, regional food businesses existing with larger-scale food 
systems is, I think, really at the heart of some of the 
discussions today. We think there is a huge opportunity. We see 
other industries, publishing, where blogs thrive while major 
dailies contract and merge. We see my favorite metaphor from 
the world of beer, where in 1980, there were 101 breweries. 
Today, the large brewers continue to get bigger, but since 
1980, more than 1,800 small craft breweries have set up shop, 
selling beer based on consumer demand, no government program, 
people wanting to pay more for a little bit different quality 
product.
    We think that is what has to happen in our food world. We 
think that there is a chance to really create a lot of wealth 
and new jobs in Detroit and regions throughout the country 
based on local and regional food systems working in 
complementary fashion with regional, global, and national 
systems.
    Healthy Metropolitan Food Hub, we take those words 
carefully. Healthy, because we believe food hubs can help 
create multiple channels for these small and emerging growers 
and processors who are trying to create new jobs and new 
wealth. Healthy, because we think that can contribute. As a 
public market, we are a place where the public convenes, a 
place where we can have a discussion about what is nutritious 
food. Lastly, metropolitan because we believe that is the scale 
that is important, because that is where rural, urban, and 
suburban places can come together.
    On your sheet, you will see a number of initiatives we have 
done to try to build ourselves out as a food hub, including 
working with Detroit Public Schools, trying to, again, grow the 
number of processors that are starting out in Detroit. Four 
years ago, we had no specialty food processors. This time of 
year, we have as many as 60. We are building a community 
kitchen to make sure that we can explode that number in the 
future.
    I would be happy to answer any further questions about the 
USDA support we have got, relatively small, a couple hundred 
thousand dollars over the last few years to leverage more than 
$15 million in private, foundation, and city support to help 
rebuild this old market into a healthy metropolitan food hub.
    [The prepared statement of Mr. Carmody can be found on page 
42 in the appendix.]
    Chairwoman Stabenow. Well, thank you very much.
    I see that Senator Casey is here, and I know I briefly 
introduced Mr. Weidman, but if you wanted to make comments, as 
well, I told him that you were coming and certainly wanted to 
have an opportunity to welcome him.

  STATEMENT OF HON. ROBERT CASEY, JR., U.S. SENATOR FROM THE 
                     STATE OF PENNSYLVANIA

    Senator Casey. Well, thanks very much, Madam Chair. I 
appreciate you calling this hearing and for your leadership and 
for covering for me.
    And as I come to this hearing, there is so much to eat on 
the table here, we should have more of these.
    Chairwoman Stabenow. That is right.
    Senator Casey. We are usually not greeted with those kinds 
of surprises.
    I will be brief, but I did want to thank our witnesses for 
being here at this hearing and also wanted to take a couple of 
minutes to introduce John Weidman and talk a little bit about 
his background, some of which you have already heard, and I 
have not had the chance to formally say hello to him, and my 
arm is not that long so I will not try to reach over the table.
    But John is the Deputy Executive Director of the Food 
Trust, which is a Philadelphia-based nonprofit corporation 
working to ensure that everyone has access to affordable and 
nutritious food. He advocates for public policy changes at the 
local, State, and Federal levels, and he helps us better 
understand the factors impacting the nutrition of lower-income 
individuals. He provides oversight for the organization's 
National Supermarket Campaign and its regional farmers' market 
program and led the effort to open Philadelphia's Headhouse 
Farmers' Market.
    John has 18 years of experience in public policy advocacy 
in nonprofit communication. He holds a Master's, and you might 
have heard this before, a Master's degree in political science 
from the University of Pennsylvania and serves on the 
Pennsylvania Emergency Food Assistance Advisory Committee and 
the Board of Directors for the Pennsylvania Public Interest 
Research Group.
    I wanted to also add that I appreciate the work that the 
Food Trust itself does to connect poor children and families to 
the SNAP program as well as other vital services. As the 
Chairman of the Joint Economic Committee, I asked our 
committee, the staff of our committee, to put together a report 
on Food Stamps and the SNAP program and the impact that the 
program has had during the recession. We know that the program 
prevented literally 4.4 million--I want to say that again, 4.4 
million families--from falling into poverty than otherwise 
would have been the case in the midst of what has been for so 
many families a horrific recession. We know that millions of 
families had to temporarily rely upon the program when they 
lost their jobs and lost their ability to feed their families.
    So this program, as we all know, is critical to millions of 
American families and especially those who are vulnerable. It 
has the lowest error rate in the program's history and it 
operates quite efficiently. That is why I have been a strong 
supporter of it and I know this will be a continuing source of 
focus as we work on the farm bill and other issues.
    So, Madam Chair, I am grateful for your leadership on all 
these issues, and John, I want to formally welcome you here 
today.
    Chairwoman Stabenow. Thank you very much.
    We will proceed with Mr. McCormick. Welcome.

 STATEMENT OF RON McCORMICK, SENIOR DIRECTOR OF LOCAL SOURCING 
AND SUSTAINABLE AGRICULTURE, WALMART STORES, INC., BENTONVILLE, 
                            ARKANSAS

    Mr. McCormick. Good morning, Madam Chair. I want to thank 
you for the opportunity to be here this morning. I am Ron 
McCormick. I am responsible for local produce sourcing programs 
and I lead our sustainable agriculture efforts at Walmart U.S. 
It is an honor to be here to talk about our locally grown 
produce sourcing program and our nutrition initiatives to help 
customers make healthy choices.
    Our consumer insights research shows us that more than 40 
percent of our customers tell us that buying local really 
matters to them. They believe it tastes better, they know it is 
fresher, and they like supporting local economies.
    We have been sourcing local produce at Walmart for many 
years, but we formalized that commitment last year, in 2010, by 
pledging to double our sales of locally-grown produce, 
achieving nine percent of our total produce sales by the year 
2015. We are really excited to be able to say that we exceeded 
that nine percent this last year and are continuing to see huge 
demand from our customers and huge sales on locally-grown 
produce.
    Walmart buys more U.S. agricultural products than any other 
retailer in the world, so we see an opportunity to use our 
position in the marketplace to improve access to healthy and 
affordable local foods for our customers and for consumers all 
across the nation.
    Aside from our scale, we also see that our geographic 
footprint provides us with the unique ability to affect change. 
We operate 41 state-of-the-art grocery distribution centers 
across the country. The advantage here is that many of them are 
located in potentially productive agricultural areas. We work 
to source more produce from areas close to these centers, 
allowing us to cut costs from the supply chain and to sell a 
more affordable, fresher product to our customers.
    One of the many important benefits of sourcing locally 
relates to a larger Walmart initiative that addresses an issue 
our customers face every day: How to feed their families 
affordable and nutritious meals. With the understanding that 
making it easier to eat healthy depends on making it easier to 
shop healthy, we launched a nutrition initiative to reformulate 
thousands of everyday food items, locate more stores near food 
deserts, save our customers a billion dollars on buying fresh 
fruits and vegetables, support nutrition education programs, 
and launch a new front-of-pack icon to help busy families 
identify healthier options as they shop in our stores.
    We also have a responsibility and an opportunity to promote 
more sustainable practices in the food and agriculture supply 
chain. One step we believe that is important is reducing the 
miles that food travels from farm to fork. For example, a few 
years ago, we bought--jalapenos came from Mexico and just a 
very few Southwestern States. Today, we are buying jalapenos 
from farmers in 27 different States, even as far north as 
Minnesota.
    But this commitment to grow and sell more local produce has 
not come without challenges. We regularly talk to our suppliers 
and our farmers, your constituents, and we understand that 
farming specialty crops is difficult and risky due to 
unpredictable weather, the lack of a ready labor force, complex 
H(2)(a) requirements, a lack of capital, and a general aging of 
the American farmers.
    Large farms in traditional agricultural States will always 
be a major part of our business. As a big retailer, we value 
those relationships. But as the population grows and as we 
encourage greater consumption of fruits and vegetables, we will 
need even more sources of product to meet the demand that we 
anticipate in the future. These challenges present an 
opportunity for us to do more to help small-scale farmers.
    One step we have taken, and working with the USDA in this 
effort, is creating small farmer intensive workshops which 
outline what farmers need to do to work with big customers like 
Walmart and other retailers and the food service industry. 
These workshops focus on food safety, labeling, refrigeration 
and packaging requirements, equipment and workforce needs, and 
third-party resources. As we expand this program, it is very 
important that everyone has access to it and we are working to 
identify and create more opportunities for women and minority-
owned farmers to sell to Walmart.
    Of course, it is impossible for us to talk to every farmer 
and deal with every grower, so we strongly support farmer-led 
co-ops and third-party management partners. These partnerships 
add value and allow farmers access to markets that they 
otherwise would not.
    But let me stress that sourcing locally cannot compromise 
food safety or the health and wellness of our customers, so we 
worked with the Global Food Safety Initiative to create a 
scalable approach to food safety for our small and developing 
suppliers. This gives Walmart the confidence that these farmers 
have critical food safety programs in place.
    To scale this, we need to engage stakeholders in ag finance 
and a whole range of sources. To the end that we are making 
headway here, I think what speaks the loudest is the amount of 
product that we have been able to buy from local farmers and 
that our shoppers find in our stores all across the country, 
whether it is from States like Michigan, where we source dozens 
of items, to other States where we are just developing brand 
new programs that we hope someday will rival those 
availabilities of product close to the customer that we do 
business with. Working together, we see the possibility of 
doing so much more in the future.
    We certainly appreciate--on behalf of all the Walmart 
associates that are working on this program, we thank you for 
the opportunity to be here and the opportunity to work together 
with so many important people.
    [The prepared statement of Mr. McCormick can be found on 
page 68 in the appendix.]
    Chairwoman Stabenow. Well, thank you very much.
    Mr. Hardin, welcome.

       STATEMENT OF JODY HARDIN, FARMER, GRADY, ARKANSAS

    Mr. Hardin. Yes. Thank you, Madam Chair, for this 
opportunity to be here to talk about local food production.
    I am a fifth generation family farmer from Grady, Arkansas. 
We own 1,000 acres with about 50 percent of it leased to other 
row crop farmers. We raise 150 acres in vegetables that we sell 
in regional wholesale markets and directly to consumers through 
a community-supported agriculture program and in our own farm 
stores.
    I have been participating in farmers' markets for 26 years, 
income which I used to pay for my college education and my 
boarding school. As founder and President of the Certified 
Arkansas Farmers' Market, I have witnessed the tremendous 
growth in demand for local foods and its impact on the rural 
economy. We have about 37 employees that are employed in my 
local food businesses, including jobs at our store in a 
downtown food desert. I am here today to share the successful 
economic opportunities I have found in producing food for local 
markets and to discuss the barriers that we face for continued 
growth.
    In 2009, we received a Farmers' Market Promotion Program 
grant from USDA's Ag Marketing Service. Through competitive 
grants, FMPP increases and strengthens direct producer-to-
consumer channels by funding marketing proposals for CSAs, 
farmers' markets, roadside stands, and other direct marketing 
strategies, such as agrotourism.
    Our small FMPP grant had big payoffs. We went from about 
400 customers per market day to over 1,000. We quadrupled our 
annual sales thanks to FMPP. Our 2008 season came in at about 
$300,000 in sales. In 2010, our sales were about $1.5 million, 
the year after our grant.
    As farmers got wind of the increasing consumer demand, we 
went from between 12 to 15 farmers per market day to over 30. 
We developed 20 lasting partnerships with local and regional 
chefs that continue today. All in all, we were able to build a 
larger clientele, we were able to build a larger base of 
farmers, and we generated dollars back into the local economy. 
In fact, I can honestly say that without our FMPP grant, our 
market and the economy would be lagging.
    But we have a real problem. There is a widespread and 
growing demand for locally-produced food, but significant 
barriers exist to meeting this demand. All roads point to a 
glass ceiling for small-scale diversified farms, a glass 
ceiling that we can shatter with investment in minimal 
processing, aggregation, storage, infrastructure, as well as 
appropriate market technologies, training, and risk management 
tools.
    For example, in the summer in Arkansas, a large number of 
our crops come off the farm around the same time. This is when 
farmers need help the most because prices are very low. At the 
same time, schools are looking for an inventory of affordable 
local foods that they can plan their meals out in advance of 
the coming school year. If we could process food in the summer 
when farmers are producing and schools are out using simple 
processing techniques like IQF and then store these products 
for the school year, farmers would win and schools would win. 
School food service companies like Sysco can work with the food 
center to distribute the food.
    One part of the solution is an aggregation and distribution 
center which we have tried to start. Unfortunately, despite our 
best efforts and my own experience, we cannot seem to get the 
food center off the ground. We need public dollars to jump-
start this initiative. Just like we found with our FMPP grant, 
a little seed money in the short term can make a huge 
difference in the long term.
    Two of our major distributors as well as retailers are 
begging me to connect them with local farmers and send them 
local food. Their combined sales in Arkansas are about half-a-
billion dollars per year. What we lack, however, is the 
appropriate infrastructure to get the foods ready for market. 
We need FMPP plus a local marketing promotion program to enable 
farmers to supply wholesale local foods.
    We have more and more farmers and ranchers wanting to 
connect with schools, grocery stores, and restaurants to boost 
income. Along with renewing and increasing funding for FMPP in 
the new farm bill, I would like to see the program expanded 
programmatically and in dollars to include grants for these 
scaled-up sales.
    Chairwoman Stabenow. you recently championed the National 
Food Safety Farmer Training Program. Thank you for this very 
much. In Arkansas, most of our farmers do not have GAP 
certification which our three food distribution companies 
require. As you write the next farm bill, I would like to see 
this program funded so it can train farmers and small 
processors on food safety measures.
    I learned from my father and on my own the extraordinary 
challenges that specialty crop producers and diversified farm 
operators face when it comes to crop insurance. I want the new 
farm bill to authorize the creation and implementation of a 
whole farm revenue insurance product that is available in all 
States and in all counties. The product would work for all 
diversified operations, including but not limited to specialty 
crops, mixed grain, livestock, or dairy operations, both 
organic and conventional.
    Finally, I would like to speak to the many crop insurance 
barriers that organic producers face. Organic farmers have been 
required to pay a surcharge for coverage based on a dubious 
assumption that organic production methods result in more risk. 
Second, FSA and RMA lack reliable organic price data. As a 
result, organic farmers have found that most crop insurance 
policies do not pay farmers for losses at organic prices, but 
instead at convention prices for the crop. The new farm bill 
should ensure RMA has sufficient data on organic crop prices so 
producers can receive payments at the correct prices. I would 
also like for the new farm bill to remove the organic premium 
surcharge on all crops.
    Thank you very much for this opportunity and I would be 
happy to take questions.
    [The prepared statement of Mr. Hardin can be found on page 
61 in the appendix.]
    Chairwoman Stabenow. Thank you very much.
    Ms. Goodman, welcome.

   STATEMENT OF ANNE GOODMAN, PRESIDENT AND CHIEF EXECUTIVE 
          OFFICER, CLEVELAND FOODBANK, CLEVELAND, OHIO

    Ms. Goodman. Thank you. Good morning, Madam Chairwoman and 
members of the committee. I am honored to be here representing 
food banks and agencies involved in the day-to-day fight 
against hunger. There are 200 food banks covering every county 
in the United States who are members of Feeding America. 
Together, we serve more than 61,000 pantries, shelters, soup 
kitchens, and other organizations that provide food directly to 
people in need.
    The need is currently greater than ever. Demand continues 
to increase, even as we have begun to see a decline in 
unemployment. We are seeing new faces. Many have run out of 
unemployment benefits, exhausted savings, or had to take jobs 
paying far less than they were making before the recession. 
They have turned to pantries, the SNAP program, or both for 
help.
    But while our ability to meet the need has been tested, the 
effectiveness with which food banks and the Federal nutrition 
programs together have responded provides me with great hope. 
It is critical that we continue to support these programs to 
ensure their ability to meet the immediate need, but it is 
important to note these investments also reap long-term 
benefits, preventing higher health, education, and workforce 
productivity costs associated with hunger and poor nutrition.
    One of the greatest success stories of the recent recession 
is how effectively SNAP responded to protect families from 
hunger. SNAP expands in hard times, helping families buy 
groceries and freeing up resources for other needs like rent, 
utilities, and transportation. SNAP is serving millions of 
people who cannot find a job, can only find part-time work, or 
cannot work because of a disability.
    Do not get me wrong, it is still a struggle. On average, 
SNAP only allows $1.50 per person per meal. So in most cases, 
SNAP does not provide enough money to last recipients 
throughout the month. There are also many people struggling to 
put food on the table who do not qualify for SNAP. In both 
cases, they turn to emergency food pantries to fill the gaps. 
Any cuts to SNAP benefits or eligibility would only increase 
the overwhelming need we are already seeing.
    To illustrate this point, let me tell you about Cassandra, 
who has three children and is making $11 an hour working full-
time. She is not eligible for SNAP. She takes home $1,468 a 
month after taxes. She pays rent, utilities, puts gas in the 
car to get to work, and one of her children has asthma, 
requiring frequent doctor visits and daily medication. There is 
no room for error for Cassandra, no room for a muffler that 
needs repairing or a few days off from work to care for a sick 
child. She makes choices. One month, she pays the electric 
bill, and the next it is the gas bill. Food is a genuine 
luxury. Because the food bank helped Cassandra supplement her 
meager food budget, she was able to pay both the electric bill 
and the gas bill in the same month.
    Our food bank and the pantries we serve rely on The 
Emergency Food Assistance Program, or TEFAP, which supplied 27 
percent of the food we distributed last year. TEFAP provides 
some of the most nutritious food we distribute, such as milk, 
green beans, and chickens. Unfortunately, unlike SNAP, TEFAP 
does not automatically grow when need grows. In fact, TEFAP 
actually declined markedly when we needed it most, falling 30 
percent in 2011. Because strong agriculture markets led to 
fewer bonus purchases, no other sources are increasing to fill 
that gap and more Federal TEFAP support is urgently needed.
    In addition to emergency food, we continue to develop 
programs to better meet our clients' needs. One of those areas 
is nutrition. In 2011, 28 percent of the food we distributed 
was produce. We are working on a project right now to allow 
local farmers to blast-freeze their product and sell it year-
round. A portion of that would be donated so our food bank 
could distribute frozen fruits and vegetables throughout the 
year.
    Providing healthy food is important, but sometimes people 
do not know how to prepare it. I have handed out produce 
countless times where a client did not know what to do with 
something, like leeks or a turnip, and passed it over. But when 
we provide recipes and samples, people are informed and they 
make different choices. We educate clients about how to grow, 
cook, and shop for healthy food on a limited budget. We use 
community gardens, tastings, and demonstrations to show the 
impact of nutrition on health and just how good healthy food 
can taste.
    Another area where we are evolving to meet our clients' 
needs is the growing senior population. We deliver food boxes 
to several senior programs throughout the Commodity 
Supplemental Food Program. I talked to a woman at one site 
about how hard it is to take two buses to get to the nearest 
grocery store. Even then, she is only able to carry two bags 
home. When we could distribute the CSFP food box package to her 
once a month, it was a Godsend.
    I have spent time with her and I wish you could, too. I 
urge each one of you to visit your local food bank. Decisions 
that are small numbers in the Federal budget have such an 
impact on real people. Feeding the hungry is not a partisan 
issue, it is a collective responsibility. Indeed, I think it is 
a moral responsibility. We have the power to make sure people 
like Cassandra do not have to choose between food and heat for 
her family and that an elderly woman is not home without 
groceries.
    With our nation focused on deficit reduction, I am here to 
plead with you not to cut these programs. I urge you instead to 
make small, targeted investments to enable food banks like mine 
to better meet the need.
    With that, I offer these recommendations. Protect SNAP from 
cuts and harmful policy changes. The program is working as 
intended to provide benefits that are timely, targeted, and 
temporary. I can tell you for certain that charity cannot make 
up the difference if SNAP benefits or eligibility are cut.
    Increase the funding for mandatory TEFAP and set aside a 
portion of the specialty crop purchase requirements to go 
specifically to food banks. The farm bill should also clarify 
USDA's authority to make TEFAP bonus purchases.
    Let me close by telling you about a special woman who has 
been visiting a food bank pantry for several months. She sent 
us a check for five dollars over the holidays. Even with scarce 
resources, she made the sacrifice because she wanted to do her 
part. I am confident that even in a time of limited resources, 
we, too, can make decisions that reflect our shared value of 
helping our neighbors in need.
    [The prepared statement of Ms. Goodman can be found on page 
46 in the appendix.]
    Chairwoman Stabenow. Thank you very much.
    Mr. Weidman.

  STATEMENT OF JOHN WEIDMAN, DEPUTY EXECUTIVE DIRECTOR, FOOD 
               TRUST, PHILADELPHIA, PENNSYLVANIA

    Mr. Weidman. Thank you, Madam Chairwoman, Ranking Member 
Roberts, and members of the committee for inviting me to 
testify. My name is John Weidman and I am the Deputy Executive 
Director of the Food Trust, a nonprofit group founded in 
Philadelphia 20 years ago with the mission of improving access 
to affordable, nutritious food. We work with over 65,000 
children each year through the SNAP-Ed Program, where we work 
to implement fun and innovative nutrition education programs 
that have been proven to reduce childhood obesity by 50 
percent. We also run 26 farmers' markets, manage a Healthy 
Corner Store Program with over 600 stores, and work around the 
country to bring more grocery stores to urban and rural areas.
    For the past five months, the Food Trust has been convening 
a regional farm bill working group composed of farmers, public 
health advocates, environmentalists, and hunger advocates to 
discuss the upcoming farm bill reauthorization. We know that 
the farm bill will have a huge impact on greater Philadelphia. 
Thousands living in poverty in our region depend on SNAP and 
those SNAP dollars, in turn, are a vital part of the economy in 
low-income communities.
    The farm bill also supports our regional food system 
through programs like the Farmers' Market Nutrition Program, 
the Farmers' Market Promotion Program, and the Community Food 
Projects Program. We believe there is a tremendous opportunity 
through the farm bill to improve access to healthy food in low-
income communities across the country.
    And I want to share with you today three innovative food 
initiatives that we are involved with which are improving the 
health and economies of urban and rural communities and which 
have the potential to be scaled up and expanded.
    The first is the Fresh Food Financing Initiative, launched 
in 2004 as a public-private partnership with the Commonwealth 
of Pennsylvania, the Food Trust, and the Reinvestment Fund. The 
program provides one-time loan and grant financing to attract 
grocery stores to underserved urban and rural areas. And using 
a State investment of $30 million leveraged with additional 
capital by TRF, the program has led to 88 projects totaling 
$190 million in investment and 5,000 jobs.
    Stores range from full-service 70,000-square-foot 
supermarkets to small corner groceries, farmers' markets, and 
co-ops, and approximately two-thirds of the projects are in 
rural areas and small towns. Research shows that access 
matters. The Food Trust and Policy Link reviewed 132 different 
studies that found that access impacts health, it improves 
eating habits, and those habits prevent obesity.
    In 2011, using the Pennsylvania program as a model, the 
Obama administration launched the Healthy Food Financing 
Initiative. The Food Trust has been proud to be working with 
our partners, Policy Link, the Reinvestment Fund, and the 
National Grocers Association, and many others to realize this 
vision. Since its launch, $77 million has been allocated for 
HFFI projects and other projects improving access to healthy 
food. And by providing this one-time loan and grant financing 
as an incentive, the HFFI will attract fresh food retailers the 
communities want and need.
    There is a significant momentum for HFFI around the 
country, and places like New York, Illinois, California, New 
Jersey, New Orleans have all created financing programs based 
on the Pennsylvania model. In each of these programs, CDFIs 
have been key drivers of success because of their ability to 
leverage additional private dollars. For example, in New York, 
the Low Income Investment Fund, a CDFI, was able to leverage a 
$10 million State investment with an additional $20 million in 
private capital.
    This national effort, though, is still in a very nascent 
stage, and in order to realize the incredible success that 
Pennsylvania has achieved over five years, we will need a large 
and sustained effort over several years. The good news is that 
we know what to do and we can do it successfully, and this one-
time infusion of grant and loan financing results in businesses 
that are both economic and social anchors for urban and rural 
areas.
    Senator Gillibrand has introduced legislation to build on 
the National Healthy Food Financing Program through the 
creation of a National Fund Manager housed at the USDA. This 
structure would mirror closely the public-private partnership 
of the Pennsylvania Fresh Food Program and allow the leverage 
of millions in private capital nationally.
    The farm bill is an appropriate vehicle to fully invest in 
a national effort to bring healthy food access to every city 
and small town that needs it.
    Next, I want to tell you about efforts in our region to get 
more locally grown produce into schools. In greater 
Philadelphia, there is great momentum around farm-to-school 
programs to educate youth and increase consumption of healthy 
food. In particular, I want to talk about the Eat Fresh Here 
Program that we launched with the School District of 
Philadelphia. It is providing fresh locally grown fruits and 
vegetables to students, teachers, and school staff. And working 
with Fair Food and a food hub called the Common Market, we have 
provided 32 schools with over 56,000 pounds of fresh produce so 
far this year. The program provides training and technical 
assistance for school cafeteria staff and cooks that help them 
incorporate fresh produce into school meals, and many more 
farm-to-school programs like Eat Fresh Here could be started or 
scaled up around the nation, helping to prevent childhood 
obesity and grow rural farm jobs.
    And last, a Healthy Food Incentive Program called the 
Philly Food Bucks Program, similar to Mr. Carmody's program at 
Eastern Market. Over the last two years, the Food Trust in 
partnership with the Philadelphia Department of Public Health 
has piloted the Philly Food Bucks Program, a $2 coupon provided 
to SNAP beneficiaries for every $5 spent at any of our 26 
farmers' markets in Philadelphia. And the evaluation of the 
program has yielded some very interesting data. Over two years, 
SNAP sales have increased 335 percent within our farmers' 
market network, and 77 percent of Philly Food Bucks users 
report an increased intake of fruits and vegetables. So the 
evaluation has shown that Philly Food Bucks is working to 
encourage healthier eating and our farmers like it, too. Over 
70 percent reported an increase in sales due to the program.
    In closing, we are proud of the success we are having in 
our region, yet we know that one in three children will develop 
Type II diabetes in their lifetime. This is not acceptable for 
our children's health and it is not sustainable for our 
economy. By expanding these food initiatives nationally, we 
know that we can create thousands of jobs as well as prevent 
obesity and diet-related diseases that threaten to worsen our 
deficit. Our region's continued progress depends on a strong 
farm bill that steers our citizens towards healthier foods, 
supports regional farm systems, and ensures that all children 
grow up surrounded by easily accessible and affordable 
nutritious food.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Weidman can be found on page 
87 in the appendix.]
    Chairwoman Stabenow. Thank you very much. We appreciate all 
of your testimony and the really important work that all of you 
are doing.
    Let me start with Dan Carmody and what is happening at 
Eastern Market. You have been operating a farmers' market and a 
food hub for a lot of years. Eastern Market has been around a 
long time. But I know that you are now working with other 
communities, both around Detroit but also up in Traverse City 
in northern Michigan and so on, helping them to set up food 
hubs or working with them to try to do that. What have you 
found to be the greatest challenges in getting some of these 
markets started or helping markets to expand into serving as a 
food hub?
    Mr. Carmody. A lot of communities with successful farmers' 
markets are trying to figure out how to take the next step, 
because really, the difference between a farmers' market is 
farmer-to-public sales. A food hub is farmer-to-multiple sale 
channels. When I lose sleep at night, it is because this surge 
of young starter farmer-ranchers comes to the market in August 
with their truckload of tomatoes and they are not there for 
Senator Roberts' November delivery date. Somebody has got to be 
in the middle helping to develop the multiple sales channels 
and go into processing or third-party transactions to go to 
Walmart or wherever. And especially the smaller farmers, that 
does not happen by itself.
    In terms of trying to take farmers' markets to the next 
step, in the State of Michigan, the State MDA in partnership 
with MSU is trying to build a regional food hub system 
throughout the State. We have been working with people in 
Traverse City that have a great facility, an old mental health 
facility that has a full commissary that could be a very 
integrated food processing distribution facility overnight. But 
most places do not have facilities in place and trying to build 
that aggregation point, there is an infrastructure need.
    I think before you get to the infrastructure, though, you 
have to get some best practices around networking and who needs 
to be at the table, and that grouping of producers and 
distributors and aggregators and end users have to get together 
and try to understand where the gaps are in the system. We 
found that sort of backdoor working with institutional buyers 
in Chicago--in Detroit, trying to build new distribution 
channels for our growers. Detroit Public Schools wants to 
replace 30 percent of its student meal content from highly 
processed to locally grown or minimally processed, but we had 
to send Michigan-grown produce to Indianapolis because we could 
not find a small processing house to cut, wash, and pack the 
product.
    We discovered a senior Meals on Wheels program that imports 
from Jackson, Mississippi, daily 4,100 senior meals. Now, no 
knock against Jackson, Mississippi, but somehow, there ought to 
be a food system that can supply that product a little closer 
to home.
    And so as you begin to peel back and try to figure out 
where those gaps are in the market, that is where the food hub 
concept comes in. Again, it is not replacing. It is really 
trying to figure out where those entrepreneurial opportunities 
are that maybe are a little smaller scale that the bigger 
systems are overlooking.
    Chairwoman Stabenow. Thank you.
    Mr. Hardin, I wonder a couple of things. One, I know you 
have a farmers' market in Argenta and it is in a food desert--
--
    Mr. Hardin. Yes.
    Chairwoman Stabenow. --a very important concept now as we 
look at what is happening for so many urban areas and certain 
rural areas. How has the local community around the market 
developed since you have created it? Have you seen a change?
    Mr. Hardin. Yes, a very good question. I have witnessed 
something I had never seen before in growth. About 2007, we 
began our local food movement, developing a brand new market 
called the Certified Arkansas Farmers' Market, and since then, 
we have just seen--it was a blighted area. No one would ever 
come down to this part of town. And since 2007, we have seen 
new restaurants, new grocery stores, which I co-founded one, 
but there was tremendous community investment in it and support 
from that, and now I think there are over 1,200 homes planned 
in the downtown area now. People want to live there. People 
were building walkable communities. It is an amazing growth 
that we have seen and everybody around Central Arkansas has 
witnessed this growth and everybody now wants to create their 
own farmers' market and help their farmers.
    Chairwoman Stabenow. That is great.
    Mr. Hardin. Thank you.
    Chairwoman Stabenow. Mr. McCormick--I am sorry, Mr. 
Carmody----
    Mr. Carmody. Could I just add an outsider's perspective on 
the Argenta situation?
    Chairwoman Stabenow. Absolutely.
    Mr. Carmody. I actually wrote an economic development 
strategy in 1996 before all of that was happening. But I think 
it just illustrates a good point between what happens when you 
take light rail and a transportation system investment and add 
it on to a local food system investment.
    Mr. Hardin. Exactly.
    Mr. Carmody. You really get miraculous results. It is, 
again, one of those examples, I think, in an austere fiscal 
world when you can add two plus two and get ten.
    Chairwoman Stabenow. Great. Thanks.
    And then, finally, before my time is up, Mr. McCormick, 
could you just speak to a little bit more--you have talked 
about small farmers and the work that Walmart is doing, which 
we appreciate. But if you had a food hub, would that allow you 
organizationally to be able to do more with small growers or 
medium-sized growers in the kinds of things we are talking 
about here?
    Mr. McCormick. I think when I go to bed at night and have 
dreams of things that would be wonderful, having food hubs near 
our 41 food distribution centers would be the answer to my 
personal prayers and a great part of our business model, 
because for us, we are talking about more sustainable 
agriculture and for building a supply chain that can sustain 
itself. And I think, there, it is an integrated supply chain, 
not just buying from lots of small farmers.
    Chairwoman Stabenow. Great. Thank you very much.
    Senator Roberts.
    Senator Roberts. Well, thank you, Madam Chairman, and it is 
an absolute delight to see my colleague from Vermont, Senator 
Leahy, come here. I thought it was a dairy hearing.
    Chairwoman Stabenow. They are passing notes back and forth.
    [Laughter.]
    Senator Roberts. Anyway, the champion of the small farmer 
in Vermont, five-foot-two, and a retired stockbroker, but then 
there is another whole story to that.
    Chairwoman Stabenow. Do not go there.
    Senator Roberts. I will not go there.
    [Laughter.]
    Senator Roberts. Mr. McCormick, meeting your food safety 
requirements, why is it difficult or more difficult for a 
grower with 50 acres to implement food safety standards and 
undergo food safety audits? It would seem to me that somebody 
with smaller land and limited commodities, that you could 
implement the good agriculture practices as opposed to somebody 
in Western Kansas who has 5,000 acres or 15,000 acres and 
several different commodities.
    Mr. McCormick. Senator, I think that it is not necessarily 
harder. It is a matter of the obstacles being greater for a 
small farmer that does not have a lot of capital and does not 
have a lot of time to invest in it.
    Senator Roberts. What obstacles?
    Mr. McCormick. A piece of it is simply the cost of the 
audit itself. So for a small farmer to pay for an audit that is 
going to average them around $1,500, it is a large capital 
outlay for them.
    Senator Roberts. So on scale----
    Mr. McCormick. Yes.
    Senator Roberts. Okay.
    Mr. McCormick. So it is difficult. And one of the great 
values of routine audits is more than just what the auditor 
helps prevent happening. It is the repeated visits from an 
audit help a farmer get better, whether he is small or he is 
large. It helps him develop a system that prevents the threats 
to food safety from occurring. So often for a very small farmer 
that wants to grow to be a bigger farmer, there is a capital 
outlay that is going to come there, too. So the audit is--and 
it is a new experience sometimes for the small farmer. So it is 
just a daunting experience and the time that is involved and 
the capital outlay is a lot for a very small farmer.
    Senator Roberts. Does Walmart require third-party food 
safety audits of all suppliers, regardless of size?
    Mr. McCormick. All suppliers, regardless of size. Our 
smallest farmers, we have kind of a step-up program where we 
work to take them to GFSI certification standards, the highest 
standards that are around.
    Senator Roberts. What is the cost of an audit for a grower 
with 50 acres of land, and how have you been able to try to 
mitigate these costs with these folks?
    Mr. McCormick. So an audit can cost $750 to about $1,500, 
plus sometimes the travel cost of the audit. Often, the travel 
cost is some of the most expensive. So one of the things that 
our small farmers tend to benefit from us is that our food 
safety department and the small farmers in an area around one 
of our distribution centers coordinate our activity together. 
So rather than have an auditor fly in and pay a large amount of 
money to fly in to do the audit for that one farmer----
    Senator Roberts. Fly in?
    Mr. McCormick. Fly in, drive in, it depends on where the 
farm is. That is a challenge to food safety today, is having--
--
    Senator Roberts. Why can they not drive? Why do they have 
to fly? How do they fly? General aviation, or what?
    Mr. McCormick. They fly on commercial aviation, and it 
depends on where it is.
    Senator Roberts. Yes.
    Mr. McCormick. Some small farmers are--and big farmers are 
fortunate that they have auditors close by. Other farmers, 
especially small farmers in areas where there is not a 
concentration of small farmers, the auditor has to fly into a 
town and drive also into the farm.
    Senator Roberts. I have got it. All right.
    Mr. Hardin, one concern I hear from consumers purchasing at 
local farmers' markets is that in not all cases are the 
products actually grown and processed and shipped locally. In 
other words, if you had a Chiquita banana sold at the local 
farmers' market, clearly, that was not grown down the street, 
or for that matter even in this country. What have the markets 
in your areas done to ensure vendors are selling only the local 
product?
    Mr. Hardin. Well, that was a big issue for us starting 
about 2004 or 2005 and we have been working for several years 
trying to figure it out. We have determined that source 
verification, actually creating markets where we require a 
source verification, where we go on farms, some market 
management goes there, and we have realized that is just 
necessary. We cannot have a successful market without it 
because there are impostors that will come into the market and 
they will put on their farmer hat and sell things and tell the 
customer they came from local areas and it is really displacing 
a local farmer. So it is really important to me that we verify 
the source of the produce.
    Senator Roberts. Mr. Weidman, you provide local fresh 
fruits and vegetables to schools in Philadelphia all year. How 
do you do that in the winter?
    Mr. Weidman. Yes, it is tougher in the winter, absolutely. 
So we work seasonally, mainly with the food hub, the common 
market. There are some products that do go year-round, though. 
We actually have a farmers' market in Philadelphia that is open 
all throughout the winter, root vegetables and other things, 
but----
    Senator Roberts. Where do they get those from in the middle 
of the winter?
    Mr. Weidman. Some of them are using--I am actually not a 
farming expert, but some of them use hoop houses, things that 
try to extend the growing season. But, yes, it is definitely--
we have the most stuff comes in closer to the growing season 
and the harvest season.
    Senator Roberts. Okay. Thank you, Madam Chairwoman. My time 
is up.
    Chairwoman Stabenow. Well, thank you very much.
    And Senator Leahy, former Chairman of the committee, 
welcome this morning.

STATEMENT OF HON. PATRICK J. LEAHY, U.S. SENATOR FROM THE STATE 
                           OF VERMONT

    Senator Leahy. Thank you, Chairwoman. Of course, I remember 
working with Senator Roberts when he chaired the House 
Agriculture Committee. Thank you for holding the hearing. I 
think it is important----
    Senator Roberts. Senator, that was another era.
    [Laughter.]
    Senator Roberts. Thrilling days of yesteryear, however, I 
would add.
    Senator Leahy. It was not that long ago. Neither one of us 
had hair then, either.
    [Laughter.]
    Senator Leahy. I think it is important to have this kind of 
a hearing. It shows the importance of local food as an economic 
driver in our States. It know it is extremely important in 
mine.
    But before I get started on the questions, I would ask 
consent, Madam Chairwoman, to submit several documents for the 
record relating to local food issues in Vermont.
    [The information of Hon. Patrick J. Leahy can be found on 
pages 114, 119, 168 and 220 in the appendix.]
    Chairwoman Stabenow. Without objection.
    Senator Leahy. Now, as I read your testimony, many of you 
point out the Farmers' Market Promotion Program has been 
instrumental in strengthening producer-to-consumer efforts, 
improving access to local foods. In Vermont, we have had the 
availability of EBT machines so participants in Vermont's SNAP 
program--we call it Three Squares Vermont-- can take advantage 
of farmers' markets. We have 37 market locations. EBT sales 
totaled around $70,000. That may seem small in large States. It 
is significant in a small State like ours.
    Mr. Hardin, you mentioned some of the successes you have 
seen with the EBT program in Arkansas. What are some of the 
barriers that you found in expanding EBT to farmers' markets, 
because even a State as large as Arkansas, I am sure you have 
some of the same issues that we have in our State of Vermont.
    Mr. Hardin. Yes. I think our sales are about the same as 
Vermont. We have really had a slow start, but it right now 
seems to be gaining momentum.
    I would like to see an expansion of the program, or access 
to more of the electronic wireless devices so that farmers can, 
you know, CSA programs can have these things and farm stores 
can have the tools so that----
    Senator Leahy. Is that one of the biggest barriers?
    Mr. Hardin. No, it is not, actually. One of the biggest 
barriers is just an awareness of where the markets are and that 
you can--that EBT is accepted at farmers' markets. We really 
have lacking in a campaign in our State to really get it out 
there. But as the awareness grows, we are seeing much more 
interest and participation each year, and I think we are really 
building on that this year and next. I have seen a lot of 
growth recently.
    Senator Leahy. I wrote the farm-to-school program included 
in the child nutrition law, and this year it is going to be 
rolled out with the mandatory grant money to get school kids 
locally grown, nutritious foods. But we also find the problems 
when you have either outdated or non-existent infrastructure. 
How can States work best on that to get food from a regional or 
local area to the schools? Could you have more flexible 
delivery options, for example?
    Mr. Hardin. Well, we--are you still addressing me?
    Senator Leahy. Sure, as well as anybody else who wants to 
jump in on that one, too.
    Mr. Hardin. Well, I am sure there is a better answer here, 
but I would like to say that we have struggled with this. What 
we would like to do is set up aggregation processing facilities 
geared directly for our schools. Our biggest concern from the 
schools are that they cannot--there is no inventory of local 
food and they are required to do a lot more meal planning 
throughout the school year. So we want to have an inventory, 
have some kind of projection of what will be available for the 
school year so that they can adequately plan for their menus. 
Regional markets, more organized distribution centers.
    Senator Leahy. Does anybody else want to add to that?
    Mr. Carmody. One thing that could contribute mightily would 
be to allow commodity entitlement credits to be used to buy 
local products. It would be a procedural change.
    Senator Leahy. Thank you.
    Mr. Weidman. And we are working with the National Farm-To-
School Network regionally in our region, kind of taking a 
traveling road show to the different school districts to teach 
things like knife skills training and recipe demonstrations to 
help them, you know, encourage them to get more fresh produce 
and locally grown produce into the school meals.
    Mr. Carmody. I would just further add that it is really--
you have to think 360 about this. It is how to get to the kids, 
the teachers, and parents. And so we will be announcing in 
April in Detroit with the DPS a major expansion in their school 
garden program tied to kids learning in the classroom what they 
eat in the cafeteria and then trying to build in a parent 
education piece through the SNAP education program, and it 
really ties it all together.
    Senator Leahy. Anyone else? Thank you.
    Chairwoman Stabenow. Thank you very much.
    Senator Leahy. Chairwoman, thank you. I will probably have 
some further questions for the record.
    Chairwoman Stabenow. Well, thank you very, very much.
    Before we close the hearing, I did want to ask Ms. Goodman, 
because I think your testimony was so important in terms of 
need and what is happening for real families every day and how 
important all of the food assistance programs are, but I am 
wondering, how do each of the programs that the food banks 
utilize fit together from your standpoint to be able to meet 
the need, whether it is emergency food assistance or SNAP or 
food bank dollars or Commodity Supplemental Food Program. How 
do they fit together, and what happens when one of those is 
cut?
    Ms. Goodman. Well, that is a great question and I am glad 
you asked. Here today, I mentioned CSFP, TEFAP, and SNAP, and 
those three particularly work together well with the private 
efforts of food banks. It is kind of a public-private 
leveraging capability that is really perfect, in my view.
    But SNAP really is the first line of defense, I would say, 
for people, because it is grocery dollars that people can get 
to supplement budgets that just do not allow them to get by, as 
I said.
    And then they are not going to be able to make it through 
the month, and there are people, as I mentioned, that do not 
get--are not eligible for SNAP benefits. So there is the 
Emergency Food System, and we are providing, however small, six 
percent of the emergency food in this country. So we have got 
to be there, and 75 percent of that food actually comes from 
the private sector. But 25 percent does come from the TEFAP 
program and it is among the most nutritious food that we 
provide. I mean, last year, off the top of my head, we had 
milk, we had chicken, we had green beans, we had fresh oranges. 
I mean, it is tremendous product. So that Emergency Food System 
is the safety net, I would say, for the people who are not 
eligible for SNAP or who are using SNAP and it does not make it 
through the month.
    And then CSFP is particularly important because SNAP is so 
underutilized by seniors. There are a couple of reasons, I 
think. The first is it is particularly stigmatized by seniors 
and many seniors that I have seen think, well, somebody needs 
it worse than I do. But then mobility issues are a really big 
deal, just getting down to the Department of Job and Family 
Services to apply for Food Stamps and then getting to the 
grocery store, to use the example that I mentioned in my 
testimony. So just accessing the grocery store makes Food 
Stamps perhaps moot in some cases. So those food boxes that are 
delivered directly to, say, the senior high-rise for seniors 
are crucial, and there are actually meals in those boxes that 
are specifically designed for the nutritional needs of those 
senior clients.
    So you can see that certainly each of them is serving a 
specific need and they work together in a way that is not 
necessarily duplicative but complementary, and they are working 
with the private sector, as well. So we are all working 
together.
    Chairwoman Stabenow. Right. Well, thank you very much, 
again, to all of you. This is a very, very important part of 
what we do in constructing a farm bill to meet nutritional 
needs and create new opportunities for growers around every 
community, I think, in America. So we thank you again for your 
testimony.
    Any additional questions for the record should be submitted 
to the committee clerk five business days from today, which is 
five o'clock on Wednesday, March 14.
    The meeting is adjourned.
    [Whereupon, at 11:32 a.m., the committee was adjourned.]
      
=======================================================================

                            A P P E N D I X

                             MARCH 7, 2012

     
=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================

                   DOCUMENTS SUBMITTED FOR THE RECORD

                             MARCH 7, 2012
      
=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


                         QUESTIONS AND ANSWERS

                             MARCH 7, 2012



      
=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
